Case: 19-40633

Document: 00515236323

Page: 1

Date Filed: 12/13/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-40633
A True Copy
Certified order issued Dec 13, 2019

JAMES EARVIN SANDERS

W. CtM
Clerk
•k, U.S. Court of Ap peals, Fifth Circuit

Petitioner-Appellant,
V.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
ORDER:
James Earvin Sanders, Texas prisoner# 1579328, moves for a certificate
of appealability (COA) to appeal the district court’s dismissal of his 28 U.S.C.
§ 2254 application challenging his conviction and sentence for two counts of
aggravated robbery. The district court determined that the § 2254 application
was time barred and that Sanders was not entitled to tolling of the limitations
period. Sanders argues that the limitations period commenced either (1) the
date on which an impediment to filing created by state action was removed, or
(2) the date on which the facts supporting the claim could have been discovered
through due diligence. He also argues for equitable tolling.
To obtain a COA, Sanders must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When the district court
Appendix

A

Case: 19-40633

Document: 00515236323

Page: 2

Date Filed: 12/13/2019

No. 19-40633
denies relief based on procedural grounds, the applicant satisfies this standard
by showing that “jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). Sanders has
not made the requisite showing.
Accordingly, IT IS ORDERED that Sanders’s motion for a COA is
DENIED. His motion to proceed in forma pauperis on appeal is also DENIED.

& k)tifatt
DON R. WILLETT
UNITED STATES CIRCUIT JUDGE

2

*-

Case 4:19-cv-00236-ALM-KPJ Document 11 Filed 07/01/19 Page 1 of 3 PagelD #: 151

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
JAMES EARVIN SANDERS, #1579328
VS.
DIRECTOR, TDCJ-CID

§
§
§
§
§

CIVIL ACTION NO. 4:19cv236

ORDER OF DISMISSAL
Petitioner James Earvin Sanders, an inmate confined in the Texas prison system, proceeding
pro se, brings this petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The cause of
action was referred to United States Magistrate Judge Kimberly C. Priest Johnson, who issued a
Report and Recommendation (Dkt. #8) concluding that the petition should be dismissed as timebarred. Sanders has filed objections (Dkt. #10).
Sanders is challenging his Denton County conviction for two counts of aggravated robbery.
On February 1, 2008, after a jury trial, he was sentenced to life imprisonment with the sentence to
run consecutively to a federal sentence. On appeal, the Second Court of Appeals modified the
cumulation order and otherwise affirmed the conviction. Sanders v. State, No. 02-08-058-CR, 2008
WL 4445644 (Tex. App. - Fort Worth Oct. 2,2008, no pet.). The conviction became final thirty days
later on November 1,2008. The present petition was due one year later on November 1,2009, in the
absence of tolling provisions. It was not filed until more than nine (9) years later on February 14,
2019. Sanders did not file an application for a writ of habeas corpus in state court until March 22,
2017. By then, the present petition was already time-barred by over seven years; thus, the pendency
of the state application did not effectively toll the deadline of November 1, 2009. The Magistrate
Judge accordingly concluded that the present petition is time-barred.
1
Appendix B

Case 4:19-cv-00236-ALM-KPJ Document 11 Filed 07/01/19 Page 2 of 3 Page!D #: 152

In his objections, Sanders argues that the applicable limitations provision should be 28
U.S.C. § 2244(d)(1)(D), which states that the limitations period shall run from “the date on which
the factual predicate of the claim or claims presented could have been discovered through the
exercise of due diligence.” He asserts that he did not receive the documents necessary to pursue a
challenge to his conviction until after September 15,2011. Assuming arguendo that date should be
used, the present petition was still due on September 15, 2012. The petition was not filed until
February 14, 2019. The petition is time-barred.
Sanders goes on to claim that the State forced him to give up the documents within one year
of receiving them. He thus argues that the State created an impediment to filing thereby triggering
§ 2244(d)(1)(B), which states that the limitations period shall run from “the date on which the
impediment to filing an application created by State action in violation of the Constitution or laws
of the United States is removed, if the applicant was prevented from filing by such State action.”
He explains that he had to give up his documents when he was transferred from federal to state
custody. The Court finds that property problems associated with him being transferred is not an
impediment created by State action in violation of the Constitution or laws of the United States.
Moreover, Sanders could still have filed an application without attaching the documentation. He has
not shown that § 2244(d)(1)(B) is applicable.
The Report of the Magistrate Judge, which contains her proposed findings of fact and
recommendations for the disposition of such action, has been presented for consideration, and having
made a de novo review of the objections raised by Sanders to the Report, the Court is of the opinion
that the findings and conclusions of the Magistrate Judge are correct and Sander’s objections are
without merit. Therefore, the Court hereby adopts the findings and conclusions of the Magistrate
2

Case 4:19-cv-00236-ALM-KPJ Document 11 Filed 07/01/19 Page 3 of 3 PagelD #: 153

Judge as the findings and conclusions of the Court. The Court is of the opinion, and so finds, that
the present petition is time-barred.
Accordingly, it is ORDERED that the petition for a writ of habeas corpus is DENIED and
the case is DISMISSED with prejudice as time-barred. A certificate of appealability is DENIED.
All motions not previously ruled on are hereby DENIED.
SIGNED this 1st day of July, 2019.

AMOS L. MAZZANT
& V
UNITED STATES DISTRICT JUDGE

3

Case 4:19-cv-00236-ALM-KPJ Document 8 Filed 06/06/19 Page 1 of 5 PagelD #: 134

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
JAMES EARVIN SANDERS, #1579328
VS.
DIRECTOR, TDCJ-CID

§
§
§
§
§

CIVIL ACTION NO. 4:19cv236

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner James Earvin Sanders, an inmate confined in the Texas prison system, proceeding
pro se, filed this petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The petition was
referred for findings of fact, conclusions of law and recommendations for the disposition of the case.
Facts of the Case
Sanders is challenging his Denton County conviction for two counts of aggravated robbery.
On February 1,2008, after a jury trial, he was sentenced to life imprisonment. On appeal, the Second
Court of Appeals modified the cumulation order and otherwise affirmed the conviction. Sanders v.
State, No. 02-08-058-CR, 2008 WL 4445644 (Tex. App. - Fort Worth Oct. 2, 2008, no pet.).
Sanders states that he filed an application for a writ of habeas corpus in state court on March
22, 2017. The Texas Court of Criminal Appeals denied his application without written order on
November 14, 2018.
The present petition was filed on March 27,2019. Sanders states that he placed the petition in
the prison mail system on February 14, 2019. The petition is deemed filed on February 14, 2019, in
accordance with the “mailbox rule.” See Spotville v. Cain, 149 F.3d 374, 377 (5th Cir. 1998). The
petition contains eight grounds for relief.
On May 8, 2019, an order was issued giving Sanders the opportunity to explain why the
petition should not be dismissed as time-barred. See Day v. McDonough, 547 U.S. 198, 210 (2006).
Sanders filed a response (Dkt. #7) on June 3, 2019.

1
Appendix C

Case 4:19-cv-00236-ALM-KPJ Documents Filed 06/06/19 Page 2 of 5 PagelD #: 135

Statute of Limitations
On April 24, 1996, the Antiterrorism and Effective Death Penalty Act of 1996 (hereinafter
“AEDPA”) was signed into law. The law made several changes to the federal habeas corpus statutes,
including the addition of a one year statute of limitations. 28 U.S.C. § 2244(d)(1). The AEPDA
provides that the one year limitations period shall run from the latest of four possible situations.
Section 2244(d)(1)(A) specifies that the limitations period shall run from the date a judgment becomes
final by the conclusion of direct review or the expiration of the time for seeking such review. Section
2244(d)(1)(B) specifies that the limitations period shall run from the date an impediment to filing
created by the State is removed. Section 2244(d)(1)(C) specifies that the limitations period shall run
from the date in which a constitutional right has been initially recognized by the Supreme Court and
made retroactively applicable to cases on collateral review. Section 2244(d)(1)(D) states that the
limitations period shall run from “the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due diligence.” Section 2244(d)(2) also
provides that the time during which a properly filed application for State post-conviction or other
collateral review with respect to the pertinent judgment or claim is pending shall not be counted toward
any period of limitation.
Discussion and Analysis
In the present case, Sanders is challenging his conviction. The appropriate limitations provision
is § 2244(d)(1)(A), which states that the statute of limitations started running when the conviction
became final. Sanders did not file a petition for discretionary review, thus the conviction became final
when the opportunity to file a petition for discretionary review expired. He had thirty days after the
court of appeals issued a decision to file a petition for discretionary review. Tex. R. App. Proc. 68.2(a);
Windland v. Quarterman, 578 F.3d 314, 315 (5th Cir. 2009). The Second Court of Appeals affirmed
his conviction on October 2,2008. The conviction became final thirty days later on November 1,2008.
The present petition was due no later than November 1, 2009, in the absence of tolling provisions. It
was not filed until more than nine (9) years later on February 14, 2019.

2

Case 4:19-cv-00236-ALM-KPJ Document 8 Filed 06/06/19 Page 3 of 5 PagelD #: 136

The provisions of 28 U.S.C. § 2244(d)(2) provide that the time during which a properly filed
application for state post-conviction or other collateral review is pending shall not be counted toward
any period of limitation. Sanders states that filed an application for a writ of habeas corpus in state
court on March 22, 2017. By then, the present petition was time-barred by over seven years. The
pendency of the state application did not effectively toll the deadline of November 1, 2009.
Sanders argues that he does not believe that his petition should be dismissed as time-barred
because of problems with records and discovery. The type of argument that he is making is an
argument for equitable tolling. The Supreme Court held that the AEDPA’s statute of limitations may
be tolled for equitable reasons. Holland v. Florida, 560 U.S. 631, 645 (2010). A petitioner is entitled
to equitable tolling only if he shows (1) that he has been pursuing his rights diligently, and (2) that
some extraordinary circumstances stood in his way and prevented timely filing. Id. at 649. Sanders has
shown neither.
In his response to the order giving him the opportunity to respond to the issue of whether the
petition should be dismissed as time-barred, Sanders also mentions 28 U.S.C. § 2244(d)(1)(B). He
states that the limitations period should not have started running until he received his documents in
September 2016. Sanders acknowledges that he sent the documents home. He did not receive his ,
documents again until September 2016. The facts discussed by him do not show an impediment created
by the State. Section 2244(d)(1)(B) is not applicable.
Overall, the present petition was filed more than nine (9) years too late. The petition should
be dismissed as time-barred.
Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district court
does not enjoy an absolute right to appeal.” Buckv. Davis, 480 U.S.__ , 137 S. Ct. 759, 773 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”) from
a circuit justice or judge. Id. Although Sanders has not yet filed a notice of appeal, the comt may
address whether he would be entitled to a certificate of appealability. See Alexander v. Johnson, 211
F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate of appealability
3

Case 4:19-cv-00236-ALM-KPJ Document 8 Filed 06/06/19 Page 4 of 5 PagelD #: 137

because “the district court that denies a petitioner relief is in the best position to determine whether the
petitioner has made a substantial showing of a denial of a constitutional right on the issues before the
court. Further briefing and argument on the very issues the court has just ruled on would be
repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing of
the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution of
his constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The Supreme
Court recently emphasized that the COA inquiry “is not coextensive with merits analysis” and “should
be decided without ‘ full consideration of the factual or legal bases adduced in support of the claims. ’”
Buck, 137 S. Ct. at 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[wjhen the district court
denied relief on procedural grounds, the petitioner seeking a COA must further show that ‘jurists of
reason would find it debatable whether the district court was correct in its procedural ruling.’”
Rhoades v. Davis, 852 F.3d 422,427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565 U.S. 134, 14041 (2012)).
In this case, reasonable jurists could not debate the denial of Sanders’ § 2254 petition on
procedural grounds, nor find that the issues presented are adequate to deserve encouragement to
proceed. Accordingly, it is respectfully recommended that the Court find that Sanders is not entitled
to a certificate of appealability as to his claims.
Recommendation
It is accordingly recommended that the above-styled petition for a writ of habeas corpus be
denied and the case be dismissed with prejudice as time-barred. It is further recommended that a
certificate of appealability be denied.
Within fourteen (14) days after service of the magistrate judge’s report, any party must serve
and file specific written objections to the findings and recommendations of the magistrate judge. 28
U.S.C. § 636(b)(1)(C). In order to be specific, an objection must identify the specific finding or
4

A.'

Case 4:19-cv-00236-ALM-KPJ Documents Filed 06/06/19 Page 5 of 5 PagelD #: 138

recommendation to which objection is made, state the basis for the objection, and specify the place in
the magistrate judge’s report and recommendation where the disputed determination is found. An
objection that merely incorporates by reference or refers to the briefing before the magistrate judge is
not specific.
Failure to file specific, written objections will bar the party from appealing the unobjected-to
factual findings and legal conclusions of the magistrate judge that are accepted by the district court,
except upon grounds of plain error, provided that the party has been served with notice that such
consequences will result from a failure to object. See Douglass v. United Servs. Auto. Ass ’n, 79 F.3d
1415, 1417 (5th Cir. 1996) (enbanc), superceded by statute on other grounds, 28 U.S.C. § 636(b)(1)
(extending the time to file objections from ten to fourteen days).
SIGNED this 6th day of June, 2019.

1
KIMBERLY C. PRIES? JOHNSON
UNITED STATES MAGISTRATE JUDGE

5

